Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 1

No. 19-2189
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIAN DWIGHT PETERSON,
Petitioner-Appellant,
v.
RANDEE REWERTS,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)

FILED
Jun 03, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: READLER, Circuit Judge.

Brian Dwight Peterson, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment denying his petition for a writ of habeas corpus fded pursuant to 28 U.S.C. § 2254.
Peterson has filed an application for a certificate of appealability (“COA”). See Fed. R. App. P.
22(b).
On October 21, 2012, Luke Vincent died after being struck multiple times in the head with
a dumbbell. Peterson was ultimately charged with open murder in violation of Michigan Compiled
Laws § 750.316. i In 2013, a Michigan jury convicted Peterson of second-degree murder, in
violation of Michigan Compiled Laws § 750.317, and the trial court sentenced him as a secondoffense habitual offender to 20-50 years’ imprisonment. The Michigan Court of Appeals affirmed.
People v. Peterson, No. 320079, 2015 WL 3448701, at *10 (Mich. Ct. App. May 28, 2015) (per
curiam), perm. app. denied, 872 N.W.2d 468 (Mich. 2015).

l

Under Michigan law, the charge of open murder gives a trial court jurisdiction to try a defendant
on first- and second-degree murder charges. See Taylor v. Withrow, 288 F.3d 846, 849 (6th Cir.
2002); see also Williams v. Jones, 231 F. Supp. 2d 586, 589 (E.D. Mich. 2002) (citing Mich. Comp.
Laws §§ 750.316, 750.318; then citing People v. McKinney, 237 N.W.2d 215, 218 (1975)).

(2 of 7)

Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 2

No. 19-2189
-2In August 2016, Peterson filed a § 2254 petition, which he later amended, arguing that:
(1) the admission of Detective Sheila Goodell’s irrelevant and highly prejudicial testimony
violated his right to a fair trial; (2) the admission of gruesome autopsy and crime-scene
photographs violated his right to a fair trial; and (3) trial counsel was ineffective for failing to:
(a) challenge Detective Goodell’s improper testimony, (b) object to the admission of the gruesome
photographs, (c) move for a directed verdict on the charge of first-degree murder, (d) obtain a
recording of Detective Goodell’s interview of him, (e) cross-examine his girlfriend “about when
she last paid counsel and about Goodell’s threat that she could be charged with perjury and face
life in prison,” and (f) allow him to listen “to the 911 call” prior to trial. Over Peterson’s objections,
the district court adopted the magistrate judge’s recommendation to deny the habeas petition on
the merits and decline to issue a COA. This appeal followed.
Peterson now seeks a COA from this court with respect to each of his habeas claims. To
the extent that Peterson advances new claims or arguments in his COA application that he did not
raise in the district court—such as his claims that trial counsel did not comprehend the pertinent
law of his case, provided him with inaccurate advice concerning the strength of his case, and
conveyed to the prosecutor an unwillingness to engage in plea negotiations—they are not properly
before this court. See United States v. Ellison, 462 F.3d 557, 560 (6th Cir. 2006).
In determining whether a COA should be granted on Peterson’s remaining claims, this
Court does not resolve his claims on the merits. Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
Rather, we consider whether Peterson has made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To do so, we assess the general quality of the
Peterson’s claims, granting a COA only if “jurists of reason could disagree with the district court’s
resolution of his constitutional claims” such that “the issues presented are adequate to deserve
encouragement to proceed” on appeal. Miller-El, 537 U.S. at 336.
But we do not work from a clean slate in evaluating Peterson’s claims. Because the
Michigan Court of Appeals addressed on the merits each of the claims Peterson now raises on
habeas review, the district court applied the stringent requirements of the Antiterrorism and

(3 of 7)

Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 3

No. 19-2189
-3 Effective Death Penalty Act, or “AEDPA.” Before habeas relief may be granted to state prisoner,
AEDPA requires that the prisoner show that the last state court decision affirming his sentence
was “contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or ... resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d). That same standard governs our review in granting a COA.
Peterson is thus entitled to proceed with his claims on appeal only if fair-minded jurists could find
the Michigan decision affirming his sentence was objectively unreasonable (not just wrong).
Moody v. United States, - F.3d ~, 2020 WL 2190766, at *2 (6th Cir. May 6, 2020).
Evidentiary Claims
State court errors concerning the admissibility of evidence are generally not cognizable on
federal habeas review. See Coleman v. Mitchell, 244 F.3d 533, 542 (6th Cir. 2001). But a state
court evidentiary ruling may warrant habeas relief if it “is so egregious that it results in a denial of
fundamental fairness”—i.e., where the ruling results in a due-process violation because it
“offend[s] some principle of justice so rooted in the traditions and conscience of our people as to
be ranked as fundamental.” Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003) (quoting Seymour
v. Walker, 224 F.3d 542, 552 (6th Cir. 2000)). No fair-minded jurist could conclude that such a
fundamental error occurred here. Miller-El, 537 U.S. at 336.
Peterson first argued that Detective Goodell, who interviewed him about the events leading
up to Vincent’s death, improperly testified that his demeanor during the interview was “defensive”
and also that she had told him during the interview that he was lying. The Michigan Court of
Appeals noted that “[djefense counsel consented to the question about [Peterson’s] demeanor, and
he asked Goodell whether she told [Peterson] he was lying.” Peterson, 2015 WL 3448701, at *1.
It therefore declined to address those arguments because “[a] defendant may not assign error on
appeal to something his own counsel deemed proper.” Id. Peterson also argued that Detective
Goodell improperly commented on his guilt when she testified that his explanation of how Vincent
sustained his fatal injures-—that a television fell on his head—“did not make sense,” and also that

(4 of 7)

Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 4

No. 19-2189
-4it was a “problem” that he did not offer who he thought had killed Vincent. The Michigan Court
of Appeals rejected those arguments, concluding that neither statement was an opinion on
Peterson’s guilt. Id. at *2. It noted that Detective Goodell never offered an opinion as to whether
she thought Peterson’s explanation concerning how Vincent sustained his fatal injuries was a lie.
Rather, she merely explained that Peterson’s nonsensical explanation caused her to ask him
additional questions during the interview. Id. The Michigan Court of Appeals also noted that
Detective Goodell never explained why she thought that it was a problem that Peterson never
volunteered who he thought had killed Vincent. Id.
The district court adopted the magistrate judge’s determination that none of Detective
Goodell’s challenged statements constituted an opinion on Peterson’s guilt. Specifically, the
magistrate judge agreed with the state appellate court’s analysis of Detective Goodell’s statements
concerning Peterson’s explanation of how Vincent died and Peterson’s failure to identify the killer.
The magistrate judge also determined that Detective Goodell’s testimony that Peterson appeared
“defensive” during the interview in no way constituted an opinion as to Peterson’s guilt or veracity.
Finally, the magistrate judge determined, in part, that Detective Goodell’s testimony that she had
insinuated to Peterson during the interview that he was being less than truthful did not violate his
right to a fair trial, especially since defense counsel purposely elicited that testimony. Because
Peterson has not identified a Supreme Court holding contradicting the Michigan appellate court’s
decision, reasonable jurists could not debate the district court’s resolution of this claim. Allen v.
Mitchell, 953 F.3d 858, 863 (6th Cir. 2020).
Peterson next argued that the admission of gruesome photographs of the crime scene and
Vincent’s autopsy violated his right to a fair trial. In rejecting this claim, the Michigan Court of
Appeals determined that because the autopsy photographs showed that Vincent had three injuries
to his head, including a depressed skull fracture, they were relevant to proving that whoever struck
Vincent probably did so with the intent to kill or cause great bodily harm. Peterson, 2015 WL
3448701, at *4. It also determined that the autopsy photographs (as well as replicas of two autopsy
photographs) were relevant because they assisted the jury in determining the credibility of both

(5 of 7)

Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 5

No. 19-2189
-5the forensic pathologist who performed the autopsy on Vincent and testified about his injuries, and
the crime laboratory technician who also testified about Vincent’s injuries. Id. The Michigan
Court of Appeals further determined that the crime-scene photographs were relevant because they
“explained and corroborated witness testimony” and also “enabled the jury to see the crime scene,
rather than having to rely solely on the testimony of witnesses.” Id.
The district court adopted the magistrate judge’s conclusion that the admission of relevant
autopsy photographs or photographs depicting a murder victim does not deprive a criminal
defendant of a fair trial. Given the state appellate court’s determination that the photographs at
issue were relevant to Peterson’s case, reasonable jurists could not debate the district court’s denial
of this claim. See, e.g., Franklin v. Bradshaw, 695 F.3d 439, 456-57 (6th Cir. 2012); Biros v.
Bagley, 422 F.3d 379, 391 (6th Cir. 2005).
Ineffective-Assistance-of-Counsel Claims
Peterson argued that trial counsel was ineffective for failing to: (a) challenge Detective
Goodell’s allegedly improper testimony, (b) object to the admission of the graphic photographs,
(c) move for a directed verdict on the charge of first-degree murder, (d) obtain a recording of
Detective Goodell’s interview of him, (e) cross-examine his girlfriend “about when she last paid
counsel and about [Detective] Goodell’s threat that she could be charged with perjury and face life
in prison,” and (f) allow him to listen to the 9-1-1 call prior to trial. To establish ineffective
assistance of counsel, a habeas petitioner must show that his attorney’s performance was
objectively unreasonable and that he was prejudiced as a result. Strickland v. Washington, 466
U.S. 668, 687 (1984). The performance inquiry requires the defendant to “show that counsel’s
representation fell below an objective standard of reasonableness.” Id. at 688. Counsel is “strongly
presumed to have rendered adequate assistance and made all significant decisions in the exercise
of reasonable professional judgment.” Id. at 690. The prejudice inquiry requires the defendant to
“show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694.

(6 of 7)

Case: 19-2189

Document: 15-2

Filed: 06/03/2020

Page: 6

No. 19-2189
-6The district court adopted the magistrate judge’s conclusion that Peterson failed to show
that he was prejudiced by counsel’s failure to move for a directed verdict on the charge of firstdegree murder because the jury did not convict him of that charge. The district court also adopted
the magistrate judge’s conclusion that it was a matter of trial strategy for counsel to elicit Detective
Goodell’s testimony that she told Peterson during the interview that she thought that he was lying
because that testimony gave the jury a nonincriminating explanation for Peterson’s defensive
demeanor. Peterson therefore failed to overcome the presumption that counsel’s questioning of
Detective Goodell was sound trial strategy. See id. at 690. Moreover, the magistrate judge—and
the district court by extension—concluded that it would have been futile for counsel to have
objected to Detective Goodell’s other testimony, the graphic photographs, or the trial court’s
decision to submit the charge of first-degree murder to the jury because, as discussed above, those
issues lacked merit. Finally, the district court adopted the magistrate judge’s conclusion that
Peterson failed to establish the factual predicates for his remaining ineffective-assistance-ofcounsel claims and, therefore, failed to demonstrate that he was prejudiced by counsel’s allegedly
deficient performance. See id. at 694. Failing Strickland alone, Peterson necessarily could not
satisfy the doubly deferential standard applicable to habeas review of Strickland claims
adjudicated in state court. See Harington v. Richter, 562 U.S. 86, 105 (2011). Considering the
foregoing, reasonable jurists could not debate the district court’s denial of Peterson’s ineffectiveassistance-of-counsel claims.
Accordingly, Peterson’s COA application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(7 of 7)

Case: 19-2189

Document: 21-1

Filed: 07/15/2020

Page: 1

No. 19-2189
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIAN DWIGHT PETERSON,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
RANDEE REWERTS,
Respondent-Appellee.

(1 of 2)

FILED
Jul 15, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: CLAY, ROGERS, and MURPHY, Circuit Judges.

Brian Dwight Peterson petitions for rehearing en banc of this court’s order entered on June
3, 2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court,* none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

‘Judge Larsen recused herself from participation in this ruling.

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2075 Filed 09/27/19 Page 1 of 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

BRIAN DWIGHT PETERSON,
Petitioner,
Case No. l:16-cv-1014
v.
HON. JANET T. NEFF
SHERMAN CAMPBELL,
Respondent.

OPINION AND ORDER
This is a habeas corpus petition filed pursuant to 28 U.S.C. § 2254. The matter was referred
to the Magistrate Judge, who issued a Report and Recommendation (R & R), recommending that
this Court deny the petition (Pet., ECF No. 1; R&R, ECF No. 19). The matter is presently before
the Court on Petitioner’s objections to the Report and Recommendation (ECF No. 22).

In

accordance with 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b)(3), the Court has performed de
novo consideration of those portions of the Report and Recommendation to which objections have
been made. The Court denies the objections and issues this Opinion and Order. The Court will
also issue a Judgment in this § 2254 proceeding. See Gillis v. United States, 729 F.3d 641, 643
(6th Cir. 2013) (requiring a separate judgment in habeas proceedings).
Petitioner raises six enumerated objections to the Magistrate Judge’s Report and
Recommendation. Petitioner subsequently filed a motion seeking leave to add missing language
to the record and to amend or add to his objections (ECF No. 24). Petitioner has also filed a
Pleading Submitting Rejected Documents containing a number of photographs, which the Court

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2076 Filed 09/27/19 Page 2 of 6

construed as a motion to supplement the record (ECF No. 25). The Court separately addresses the
objections and the motions.
1. Objections
First, Petitioner objects to the Magistrate Judge’s finding that “because the ‘grounds raised
by [Petitioner] are meritless,’ a detailed analysis of the procedural defaulted issues is unnecessary,”
(ECF No. 22 at PageID.2027). Petitioner provides no supporting argument or explanation for this
objection, but merely cites “page 19-20” of the R&R. The purported quotation is not found on the
cited pages. In any event, Petitioner’s bare objection points to no error in the Magistrate Judge’s
rejection of Respondent’s procedural default arguments, and the decision “to simply address
Petitioner’s claims on the merits” (ECF No. 19 at PageID.2006-2007). Therefore, the Court denies
this objection.
Second, with regard to Petitioner’s claims of ineffective assistance of counsel, Petitioner
objects that his claims are meritorious, asserting that the Magistrate Judge “relied heavily on the
Michigan Court of Appeals decision,” rather than the Sixth Amendment or Strickland v.
Washington, 466 U.S. 668, 688 (1984) (ECF No. 22 at PageID.2027). However, the Magistrate
Judge correctly applied the governing law, including the Strickland standard, noting that review is
“doubly deferential” in the context of a habeas petition. The Magistrate Judge properly concluded
that Petitioner’s ineffective assistance claims raised no issue warranting habeas relief (ECF 19 at
PagelD.2016-2020). Therefore, Petitioner’s second objection is denied. To the extent Petitioner
raises this same ineffective-assistance-of-counsel argument again in his fifth objection, that portion
of Petitioner’s fifth objection is also denied (ECF No. 22 at PagelD.2030).
Third, Petitioner objects that the Magistrate Judge erred by including “improper facts” in
the Report and Recommendation. (ECF No. 22 at PagelD.2027-2028). Petitioner asserts that the

2

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2077 Filed 09/27/19 Page 3 of 6

Magistrate Judge erroneously attributed a statement made by Detective Goode 11 to Lindsey West
{id., citing 7/10/13 Trial Tr. at PagelD.756-63). Petitioner makes the bare assertion that the R&R
is therefore “contrary to clearly established federal law” {id. at PagelD.2028). Petitioner does not
demonstrate that the Magistrate Judge misattributed testimony in summarizing the testimony of
witness West (ECF No. 19 at PagelD. 1996). Neither does Petitioner show how such a nominal
misattribution in the statement of facts, even if it did occur, warrants habeas relief. Petitioner’s
third objection is denied.
Petitioner’s fourth and fifth objections generally argue that error occurred with respect to
evidence admitted against him at trial, including autopsy photographs and Detective Goodell’s
testimony concerning her interview with Petitioner (EFC 22 at PagelD.2028-2030). Petitioner
also objects that Magistrate Judge faulted Petitioner for failing to submit the photographs at issue
since they should have been included with the trial court record.
Petitioner fails to show any error warranting habeas relief. The Magistrate Judge noted
that “Petitioner cannot simply argue that the trial court’s evidentiary ruling was incorrect”; instead,
Petitioner has the burden of establishing that “the admission of the challenged photographs
[evidence] denied him the right to a fair trial” {id. at PageID.2012). Although the Magistrate Judge
noted that Petitioner failed to submit the photographs for proper consideration of this claim, the
Magistrate Judge proceeded to address the general issue raised by Petitioner and properly
concluded that Petitioner raised no claim upon which habeas relief may be granted (ECF No. 19
at PagelD.2012-2014). Petitioner’s evidentiary objections fail to show otherwise. Petitioner’s
fourth and fifth objections are denied.

3

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2078 Filed 09/27/19 Page 4 of 6

Lastly, the Petitioner cursorily “strongly” objects to the Magistrate Judge’s
recommendation that a certificate of appealability be denied. Petitioner provides no argument to
support this bare objection; therefore, it is denied.
2. Motions
Petitioner has filed a motion to add missing language to the record or to amend or add to
his objections (ECF No 24). In the motion, Petitioner requests that his filing be added as an
amendment to his objections. He states: “in order for the Petitioner’s claims to be considered, the
attached disk sent in by the Petitioner’s mother, certified mail on 11/28/18 and the missing
language of the transcript and the added background and Affidavit, [sic] The interrogation tapes
and ex[hibi]t photographs shown to the jury along with the 911 recordings must be considered”
(ECF No. 24 at PageID.2045). Attached to Petitioner’s motion is a “Background,” a section titled
“Ineffective Assistance of Counsel,” and an Affidavit (id. at PagelD. 2047-2055).
The nature of Petitioner’s requests and his submission are not entirely clear. The Court
will accept the filing as a supplement to his objections. However, the Court discerns nothing in
this material that alters the outcome of the R&R. To the extent that Petitioner seeks to add missing
language or material to the trial court record, the Court finds no proper basis for altering the record
and declines to do so. Likewise, to the extent Petitioner advances new arguments not raised before
the Magistrate Judge, such arguments are improper at this stage of the proceedings, and the Court
declines to entertain them. See Glidden Co. v. Kinsella, 386 F. App’x 535, 544 n.2 (6th Cir. 2010)
(stating that while the Sixth Circuit has not squarely addressed whether a party may raise new
arguments before a district judge that were not presented to the magistrate judge, the Sixth Circuit
has indicated that a party’s failure to raise an argument before the magistrate judge constitutes a
waiver) (citing Murr v. United States, 200 F.3d 895, 902 n.l (6th Cir. 2000)).

4

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2079 Filed 09/27/19 Page 5 of 6

Petitioner’s second motion is merely the submission of autopsy photographs referenced
above in Petitioner’s objections. They do not change the foregoing analysis of any of Petitioner’s
objections.
Thus, the Court grants Petitioner’s motions to the extent they seek to supplement his
objections; the motions are otherwise denied.
3. Certificate of Appealability
Having determined Petitioner’s objections lack merit, the Court must further determine
pursuant to 28 U.S.C. § 2253(c) whether to grant a certificate of appealability as to the issues
raised. See Rules Governing § 2254 CASES, Rule 11 (requiring the district court to “issue or
deny a certificate of appealability when it enters a final order”). The Court must review the issues
individually. Slack v. McDaniel, 529 U.S. 473 (2000); Murphy v. Ohio, 263 F.3d 466, 466-67 (6th
Cir. 2001).
“Where a district court has rejected the constitutional claims on the merits, the showing
required to satisfy § 2253(c) is straightforward: The petitioner must demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”
Slack, 529 U.S. at 484. Upon review, this Court finds that reasonable jurists would not find the
Court’s assessment of Petitioner’s claims debatable or wrong. In accordance with the Magistrate
Judge’s recommendation, a certificate of appealability will therefore be denied.
Accordingly:
IT IS HEREBY ORDERED that the Petitioner’s Objections (ECF No. 22) are DENIED
and the Report and Recommendation of the Magistrate Judge (ECF No. 19) is APPROVED and
ADOPTED as the Opinion of the Court.

5

Case l:16-cv-01014-JTN-SJB ECF No. 27, PagelD.2080 Filed 09/27/19 Page 6 of 6

IT IS FURTHER ORDERED that the Petitioner’s Motions (ECF No. 24; ECF No. 25)
are GRANTED IN PART AND DENIED IN PART; the motions are granted to the extent they
supplement his objections; they are otherwise denied.
IT IS FURTHER ORDERED that the petition for habeas corpus relief (ECF No. 1) is
DENIED for the reasons stated in the Report and Recommendation.
IT IS FURTHER ORDERED that a certificate of appealability pursuant to 28 U.S.C.
§ 2253(c) is DENIED as to each issue asserted.

/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

Dated: September 27, 2019

6

